                                               NATIONAL SCIENCE FOUNDATION
                                                OFFICE OF INSPECTOR GENERAL
                                                  OFFICE OF INVESTIGATIONS

                                          CLOSEOUT MEMORANDUM

Case Number: 112070042                                                                 Page 1 of 1



         This I case was opened on a company 1 from a proactive review of SBIR Phase IB and liB
         supplemental awards to companies. OIG verified the source and use of the Phase IB matching
         funds. As a result, this I case is closed.




NSF OIG Form 2 (11/02)
